Department of Homeland Security
   Ofﬁce of Inspector General


        U.S. Coast Guard's Acquisition of the 

            Vertical-Takeoff-and-Landing 

              Unmanned Aerial Vehicle 





OIG-09-82                                   June 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 25028




                                       June 24, 2009

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

Given the cancellation of the Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle
acquisition, this report identifies issues that the U.S. Coast Guard can address to mitigate
the existing operational capability gap. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background .........................................................................................................................2


Results of Review ................................................................................................................3


     Need to Mitigate the Existing Aerial Surveillance Capability Gap ..............................3


     Need to Resolve FAA Regulatory Requirements ..........................................................4 


     Recommendations..........................................................................................................6          


     Management Comments and OIG Analysis ..................................................................6


Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................8 

     Appendix B:             Management Comments to the Draft Report .......................................9 

     Appendix C:             Major Contributors to this Report .....................................................12 

     Appendix D:             Report Distribution ............................................................................13 


Abbreviations

     FAA                  Federal Aviation Administration 

     VUAV                 Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 





                                          U.S. Coast Guard's Acquisition of the

                                Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                In June 2007, after five years of effort and a total of $113.7 million in
                expenditures and outstanding obligations, the Coast Guard terminated
                the Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle
                acquisition. Internal Coast Guard analyses recommended program
                cancellation due to unresolved developmental risks and increased costs.
                Without the Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle,
                the aerial surveillance capability of the National Security Cutter is
                reduced from 58,160 square nautical miles to 18,320 square nautical
                miles, a 68% reduction.

                The Coast Guard needs to document its short-term strategy to mitigate
                the maritime surveillance gap resulting from canceling the Vertical-
                Takeoff-and-Landing Unmanned Aerial Vehicle program. The Coast
                Guard should also continue to work with the Federal Aviation
                Administration and the International Civil Aviation Organization to
                ensure that future unmanned aircraft acquisitions meet regulatory
                requirements that may otherwise restrict the operation of unmanned
                aircraft in national and international airspace.

                The Coast Guard proceeded with the acquisition of the Vertical-
                Takeoff-and-Landing Unmanned Aerial Vehicle without assurance that
                the aircraft would be able to operate in a manner to meet the Coast
                Guard's mission needs without restrictions.

                This report contains two recommendations to the Coast Guard to
                mitigate the surveillance capability gap and resolve regulatory issues
                for operating unmanned aircraft in controlled airspace.




                           U.S. Coast Guard's Acquisition of the

                 Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                        Page 1

Background
        Acquisition of the Vertical-Takeoff-and-Landing Unmanned Aerial
        Vehicle (VUAV) was a key component of the Coast Guard's
        Integrated Deepwater System (Deepwater) contract with Integrated
        Coast Guard Systems. The $24 billion, 25-year acquisition program
        was designed to replace and modernize the Coast Guard’s aging and
        deteriorating fleet of ships and aircraft.

        The 2002 Deepwater contract specified the delivery of 69 VUAVs for
        an estimated total cost of $425 million, with the delivery of the first
        eight aircraft to occur in 2006. The VUAV project did not receive
        funding in FY 2003 because the Deepwater program was not fully
        funded and available funds were used on higher priority projects.
        The VUAV project was only partially funded from FY 2004 through
        FY 2006. To continue with the VUAV acquisition within budget
        limitations, the Coast Guard divided the original VUAV development
        and demonstration contract into three increments: system
        development, system component production, and vehicle assembly
        and demonstration. According to the Coast Guard, incrementally
        funding the VUAV project increased costs and added two years to the
        acquisition schedule. In February 2006, the Coast Guard revised its
        Deepwater Implementation Plan to the delivery of one VUAV
        (delivery date not specified).

        In June 2007, the Coast Guard terminated the VUAV, citing
        development risks and a lack of funding beyond 2007 as reasons for
        discontinuing the program. The Coast Guard said that it does not
        intend to seek recoupment of the funds expended on the VUAV
        acquisition other than unobligated funds in Integrated Coast Guard
        Systems’ accounts. According to the Coast Guard, at project
        termination, $90.3 million was expended with outstanding obligations
        of an additional $23.4 million.

        The Coast Guard has been conducting a series of alternatives
        analyses to determine the path forward to replacing the capability lost
        resulting from the termination of the VUAV project. These analyses
        have included research on land- and cutter-based unmanned aircraft.
        For example, the Coast Guard has worked collaboratively with U.S.
        Customs and Border Protection on the use of unmanned aircraft in a
        marine environment.




                   U.S. Coast Guard's Acquisition of the

         Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                Page 2
Results of Review
                           The Coast Guard needs to document its short-term strategy to
                           mitigate the maritime surveillance capability gap resulting from
                           canceling the VUAV project. The Coast Guard should also
                           continue to work with the Federal Aviation Administration (FAA)
                           and the International Civil Aviation Organization to ensure that
                           future unmanned aircraft acquisitions meet regulatory requirements
                           that may otherwise restrict the operation of unmanned aircraft in
                           national and international airspace. The Coast Guard proceeded
                           with the acquisition of the VUAV without assurance that the
                           aircraft would be able to operate without restrictions, potentially
                           hampering the Coast Guard’s ability to accomplish its missions.


         Need to Mitigate the Existing Aerial Surveillance

         Capability Gap 

                           Without VUAVs, the aerial surveillance capability of the National
                           Security Cutter is reduced from 58,160 square nautical miles to
                           18,320 square nautical miles, a 68% reduction. According to the
                           Coast Guard, the operational effectiveness of the National Security
                           Cutter without the
                           VUAV will be
                           comparable to that of
                           the 378-foot Hamilton
                           class high-endurance
                           cutter.1 Hamilton
                           class cutters are
                           currently deployed
                           with a single
                           helicopter
                           programmed to
                           conduct up to four           Bell Eagle Eye Demonstrator Aircraft
                           hours of aerial surveillance per day. In contrast, the National Security
                           Cutter was projected to be deployed with aviation assets ranging from
                           one manned helicopter and two VUAVs, to four VUAVs without a
                           helicopter. Together, these assets were to provide up to 16 hours of
                           aerial surveillance per day for each cutter. A similar reduction in
                           aerial surveillance capability is expected to affect the proposed
                           Offshore Patrol Cutter fleet. The Coast Guard expected the VUAV to

1
 The Coast Guard intends to replace its aging and deteriorating fleet of high- endurance and medium-
endurance cutters with 8 National Security Cutters and 25 Off Shore Patrol cutters, to be acquired over the next
20 years.

                                      U.S. Coast Guard's Acquisition of the

                            Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                                    Page 3
          significantly improve the ability of the National Security Cutter and
          the Offshore Patrol Cutter to conduct drug and migrant interdiction,
          law enforcement, living marine resource patrols, and search and
          rescue missions.

          With the cancellation of the VUAV, the Coast Guard needs to
          document its short-term strategy to fill the aerial surveillance
          capability gap for the National Security Cutter. For the short term, the
          Coast Guard has proposed compensating for the surveillance
          capability gap through increased flight hours of the HH-65 Dolphin
          Helicopters. The Coast Guard is also considering increasing the flight
          hours of the medium-range surveillance maritime patrol aircraft and
          the long-range surveillance and transport aircraft. The Coast Guard
          has said that these short-term solutions come at a higher price per
          flight hour than the planned VUAV. We are concerned that the
          diversion of these air assets to compensate for the National Security
          Cutter surveillance capability gap also may impact other Coast Guard
          mission requirements. For example, a long-range surveillance and
          transport aircraft may need to be diverted from conducting a living
          marine resources enforcement patrol to provide higher priority aerial
          surveillance support for a National Security Cutter.

          For the long term, the Coast Guard is continuing to investigate
          unmanned aircraft alternatives. In February 2009, the Department of
          Homeland Security approved the Coast Guard’s strategy for
          determining the most effective unmanned aircraft system to operate
          from the National Security Cutter. The Coast Guard plans to conduct
          research, including testing and evaluation, of an existing unmanned
          aircraft system to support future system acquisition programs. The
          research also includes an air safety analysis to determine the
          requirements necessary to address regulatory issues that may restrict
          unmanned aircraft operations in the Coast Guard's operating and
          mission areas. According to the Coast Guard, the final report is
          expected in March 2010.


Need to Resolve FAA Regulatory Requirements
          The FAA and the International Civil Aviation Organization classify
          unmanned aerial vehicles as aircraft. Therefore, the operation of
          unmanned aerial vehicles in national and international airspace is
          subject to existing aircraft flight rules and regulations. The Coast
          Guard worked with the FAA to address regulatory requirements such
          as airworthiness certification standards. However, the Coast Guard
          did not resolve with the FAA and the International Civil Aviation

                     U.S. Coast Guard's Acquisition of the

           Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                  Page 4
                           Organization how it would operate the VUAV in airspace controlled
                           by either of these organizations.

                           See and Avoid Capability

                           Central to FAA air safety requirements for aircraft to operate
                           unrestricted in regulated airspace is the ability of the aircraft pilots to
                           see and avoid other traffic in the airspace.2 To meet this requirement,
                           Integrated Coast Guard Systems proposed using a High Frequency
                           Surface Wave Radar. The High Frequency Surface Wave Radar was
                           a U.S. Navy developmental program that was outside the Coast
                           Guard's direct control. This radar technology was to be installed
                           aboard the National Security Cutter and the proposed Offshore Patrol
                           Cutter to provide a detect, see, and avoid capability. The U.S. Navy
                           cancelled the High Frequency Surface Wave Radar project in 2003
                           due to technological problems.

                           The Coast Guard and Integrated Coast Guard Systems had no
                           assurances that the High Frequency Surface Wave Radar would have
                           satisfied FAA airspace deconfliction requirements. According to the
                           FAA, a detect, sense (see), and avoid system capable of meeting FAA
                           requirements does not yet exist. Without detect, see, and avoid
                           technology for unmanned aircraft vehicles that satisfies FAA
                           requirements for unrestricted access to U.S. airspace, or a FAA
                           accepted airspace safety risk analysis and usage plan, it is unlikely
                           that unmanned aircraft will be authorized for unrestricted use by the
                           Coast Guard in performing its missions in FAA-regulated airspace.

                           The Coast Guard intended to operate the VUAV over the high seas in
                           national and international airspace using the National Security
                           Cutter’s air search radar capability to mitigate risk by clearing the
                           airspace around the VUAV. The Coast Guard was also investigating
                           the use of “Due Regard" provisions. These provisions would have
                           permitted the Coast Guard to operate the VUAV in international
                           airspace even though it had not met the FAA's detect, see, and avoid
                           requirements. The Due Regard provisions allow the Coast Guard to
                           deviate from normally accepted flight procedures by requiring that it
                           assume full responsibility for separation of its aircraft from all other
                           aircraft operating in the same international airspace.3

2
  Per 14 CFR § 91.113 (b), when weather conditions permit, regardless of whether an operation is conducted
under instrument flight rules or visual flight rules, vigilance shall be maintained by each person operating an
aircraft so as to see and avoid other aircraft.
3
  Article 3(d) of the Convention of International Civil Aviation of 1944 states, “The contracting States
undertake, when issuing regulations for their state aircraft, that they will have due regard for the safety of
navigation of civil aircraft.”

                                       U.S. Coast Guard's Acquisition of the

                             Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                                     Page 5
          The Coast Guard, under its Due Regard provisions and the FAA’s
          Certificate of Authorization application process, intended to use the
          cutters’ air search radar to provide airspace deconfliction for VUAV
          operations in international airspace. These operations would be
          conducted more than 50 nautical miles from shore, where the
          likelihood of encountering other air traffic would be relatively low.
          However, the operation of the VUAV 50 nautical miles from shore
          might not have permitted the Coast Guard to conduct missions in
          accordance with the planned Concept of Operations. For example, the
          Coast Guard planned to operate the VUAV in the Caribbean, but
          those operations might have been problematic because of the
          proximity of many islands and countries in the region to each other.
          The Coast Guard is conducting airspace studies to determine the
          closest approach to shore for VUAV operations that will meet FAA
          safety criteria.


Recommendations
          We recommend that the Commandant of the Coast Guard:

          Recommendation #1: Document the short-term strategy and plans to
          mitigate the maritime surveillance gap, including potential impacts on
          Coast Guard missions, until the long-term solution to replacing the
          operational capability lost as a result from the cancellation of the
          VUAV project is identified.

          Recommendation #2: Ensure that any future unmanned aircraft
          system acquisition will satisfy FAA and international regulatory
          requirements necessary to meet Coast Guard operational needs.


Management Comments and OIG Analysis
          The Coast Guard concurred with both recommendations.
          Additionally, the Coast Guard has indicated that it is taking corrective
          actions to address the recommendations. We consider both
          recommendations resolved, but they will remain open until we receive
          additional information regarding the Coast Guard's implementation of
          the corrective actions indicated.

          Management Comments to Recommendation #1: The Coast Guard
          concurred with our recommendation regarding the documentation of



                     U.S. Coast Guard's Acquisition of the

           Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                  Page 6

its short-term strategy and plans to mitigate the maritime surveillance
gap, until the long-term solution to replacing the operational
capability lost as a result from the cancellation of the VUAV project
is identified. According to the Coast Guard, its operational
commanders will prioritize the level of manned aviation support to the
National Security Cutter and will adjust the level of aviation support
depending on the mission and maritime surveillance needs.
Additionally, the Coast Guard stated that it is conducting a fleet mix
analysis to identify mission demands and capability requirements.
The fleet mix analysis will quantify changes made to the original
Deepwater program of record (including unmanned aircraft
surveillance) to identify current and projected operational gaps. The
resulting analysis will be used to define any maritime surveillance
gaps that may exist and formulate recommendations on material
solutions to close the gaps.

OIG Analysis: We consider the Coast Guard's proposed actions
responsive to the recommendation. However, this recommendation
will remain open until the Coast Guard provides the results of the fleet
mix analysis and its short-term strategy and plans to mitigate the
maritime surveillance gap, including potential impacts on Coast
Guard missions.

Management Comments to Recommendation #2: The Coast Guard
concurred with our recommendation to ensure that any future
unmanned aircraft system acquisition will satisfy FAA and
international regulatory requirements necessary to meet Coast Guard
operational needs. According to the Coast Guard, it is working with
the FAA to address the challenges of integrating unmanned aircraft
into the National Airspace System, including the creation of a Coast
Guard liaison officer position in the FAA Unmanned Aircraft Branch.
The liaison officer will focus on unmanned aircraft operations in the
maritime environment and development of unmanned aircraft airspace
policies and procedures. The Coast Guard stated that it would fill the
liaison officer position within the FAA Unmanned Aircraft Branch by
the summer of 2009.

OIG Analysis: We consider the Coast Guard's proposed actions
responsive to the recommendation. However, this recommendation
will remain open until the Coast Guard fills the Coast Guard liaison
officer position at the FAA Unmanned Aircraft Branch.




           U.S. Coast Guard's Acquisition of the

 Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                        Page 7
Appendix A
Purpose, Scope, and Methodology


                  This audit identifies lessons learned from the unsuccessful Bell “Eagle Eye”
                  Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle (VUAV) project,
                  contracted by the Coast Guard with Integrated Coast Guard Systems, LLC,
                  under the Deepwater Acquisition Program.

                  As part of the effort, we reviewed cost, schedule, and performance measures
                  surrounding the VUAV acquisition to determine changes from the original
                  Deepwater contract and their effects on the VUAV acquisition. We also
                  reviewed the Coast Guard’s management and oversight of the VUAV
                  acquisition, including its policies, procedures, and oversight authorities.

                  The audit period generally covered historical VUAV data and documents as
                  related to the original Deepwater request for proposal; the 2002 Deepwater
                  contract; the 2005 Revised Deepwater Implementation Plan; the 2007 Award
                  Term 1 contract; delivery/task orders and undefinitized contract actions;
                  engineering change proposals; and requests for equitable adjustment.

                  We conducted fieldwork at Coast Guard headquarters in Washington, DC; at
                  the Bell Helicopter VUAV Program Office located in Hurst, TX; and at the
                  Coast Guard Research and Development Center in Groton, CT. We
                  interviewed Coast Guard, Integrated Coast Guard Systems, Bell Helicopter,
                  and subcontractor personnel. We also reviewed department records and
                  documents.

                  We conducted this performance audit between June 2007 and February 2009
                  in accordance with generally accepted government auditing standards. Those
                  standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our audit objectives. We believe that the evidence
                  obtained provides a reasonable basis for our findings and conclusions based on
                  our audit objectives.




                                  U.S. Coast Guard's Acquisition of the

                        Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                               Page 8
Appendix B
Management Comments to the Draft Report




                                U.S. Coast Guard's Acquisition of the

                      Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                             Page 9

Appendix B
Management Comments to the Draft Report




                                U.S. Coast Guard's Acquisition of the

                      Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                            Page 10

Appendix B
Management Comments to the Draft Report




                                U.S. Coast Guard's Acquisition of the

                      Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                            Page 11

Appendix C
Major Contributors to this Report


                    Richard T. Johnson, Director, Immigration and Enforcement
                    Bradley Mosher, Supervisory Auditor
                    Robert Greene, Program Analyst
                    Lorinda Couch, Program Analyst
                    Tessa May-Fraser, Program Analyst




                                   U.S. Coast Guard's Acquisition of the 

                         Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                               Page 12

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                U.S. Coast Guard's Acquisition of the 

                      Vertical-Takeoff-and-Landing Unmanned Aerial Vehicle 


                                            Page 13

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
